Department of Homeland Security
   Ofﬁce of Inspector General


            Improvements Needed in FEMA's 

             Disaster Contract Management
 





OIG-10-53                                February 2010
                                                                  Office of Inspector General

                                                                   U.S. Department of Homeland Security
                                                                   Washington, DC 25028




                                     February 3, 2010

                                        Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports published as part of our oversight responsibilities to promote economy,
effectiveness, and efficiency within the department.

This report addresses the strengths and weaknesses of the Federal Emergency Management
Agency’s (FEMA) disaster contract management. We contracted with the independent
public accounting firm of Foxx & Company to perform the audit. The contract required
that Foxx & Company perform its audit according to generally accepted government
auditing standards. Foxx & Company identified five areas where FEMA’s disaster contract
management should be improved. The report contains two recommendations addressed to
the Administrator of FEMA, and three recommendations addressed to the Director,
Acquisition Management Division.

Foxx & Company is responsible for the attached auditor’s report dated January 15, 2010,
and the conclusions expressed in the report.

The recommendations herein have been developed with the best knowledge available to
our contractor. We trust that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all who contributed to the
preparation of this report.




                                       Richard L. Skinner 

                                       Inspector General 

January 22, 2010

Mr. Matt Jadacki
Deputy Inspector General for Office of Emergency Management Oversight
Office of Inspector General
Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Mr. Jadacki:

Foxx & Company performed an audit of Selected FY 2008 Federal Emergency
Management Agency (FEMA) Disaster Contracts. The audit was performed according to
Task Order No. TPDFIGBPA070007, dated December 11, 2008.

This report presents the results of the audit and includes recommendations to help
improve the FEMA’s Acquisition Management Division’s management and oversight of
disaster contracting.

Our audit was conducted according to applicable Government Auditing Standards, July
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards, and included a review and report of program activities with a compliance
element. We did not perform a financial audit, the purpose of which would be to render
an opinion on the agency’s financial statements.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company



Martin W. O’Neill
Partner
Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................5
 

   Acquired Goods and Services........................................................................................5 

   Recommendation .........................................................................................................10 

   Management Comments and Contractor Analysis ......................................................10 


     Costs Incurred for Acquisitions ...................................................................................12 

     Recommendation .........................................................................................................16 

     Management Comments and Contractor Analysis ......................................................16 


     Improvements Needed in Pre-planning and Pre-positioning of Contracts ..................19 

     Recommendation .........................................................................................................23 

     Management Comments and Contractor Analysis ......................................................23 


     Improvements Needed in Contract Management ........................................................24 

     Recommendation .........................................................................................................28 

     Management Comments and Contractor Analysis ......................................................28 


     Establishing a Joint Field Office..................................................................................29 

     Recommendation .........................................................................................................37 

     Management Comments and Contractor Analysis ......................................................37 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................39 

     Appendix B:           Management Comments on the Draft Report ......................................41 

     Appendix C:           List of Related Reports and Testimonies .............................................45 

     Appendix D:           FEMA Organization Chart...................................................................47 

     Appendix E:           Report Distribution ..............................................................................48 


Abbreviations
     AMD                   FEMA Acquisition Management Division 

     DHS                   Department of Homeland Security 

     FAR                   Federal Acquisition Regulation 

     FEMA                  Federal Emergency Management Agency 

     GAO                   Government Accountability Office 

     GPE                   Government Point of Entry 

     GSA                   General Services Administration 

     HHS                   Department of Health and Human Services 

Table of Contents/Abbreviations 


  IA-TAC   Individual Assistance-Technical Assistance Contract
  JFO      Joint Field Office
  MLS      Multiple Listing Service
  NRF      National Response Framework
  OIG      Office of Inspector General
  SOP      Standard Operating Procedure
OIG
 

Department of Homeland Security
Office of Inspector General


Executive Summary
                Foxx & Company audited a selected sample of the Federal Emergency
                Management Agency’s Acquisition Management Division fiscal year
                2008 disaster contracts. The audit objectives were to assess FEMA’s
                management of the contracts; safeguards used against fraud, waste, and
                abuse; communications and coordination within FEMA and with other
                federal agencies and states regarding disaster contracts; and the extent to
                which contracting polices and procedures were followed.

                More than half of the 49 contracts reviewed had one or more of the
                following five issues:
                    �	 Goods and services purchased were either not needed or 

                       significantly underutilized; 

                    �	 Funds were expended on questionable acquisitions;
                    �	 Additional advanced planning or establishment of pre-positioned
                       contracts for recurring disaster goods was needed;
                    �	 Acquisition decisions were not adequately documented; and
                    �	 Monitoring of contractor performance needs improvement.

                In addition, questionable decisions in establishing a Joint Field Office
                resulted in excessive expenditures of federal funds and risked the health
                and safety of the employees.

                As a result of these issues, FEMA did not always provide the most cost-
                effective solution through contract support for disaster relief. We are
                making five recommendations that will improve contract management
                and decrease the risk of fraud, waste, and abuse.

                FEMA recognizes some of these problems and is taking corrective
                actions.

                FEMA’s response to our recommendations is summarized and evaluated
                in the body of this report and included in its entirety as Appendix B.




               Improvements Needed in FEMA’s Disaster Contract Management 


                                         Page 1 

Background
                 State and local government agencies and organizations act as first
                 responders to emergencies (natural and manmade). When state
                 and local governments become overwhelmed by the size or scope
                 of a disaster, state officials may request assistance from the federal
                 government. President Carter issued Executive Order 12127 in
                 March 1979, which merged many separate disaster-related federal
                 functions into the Federal Emergency Management Agency
                 (FEMA). Following the terrorist attacks of September 11, 2001,
                 the Homeland Security Act of 2002 (Public Law 107-296)
                 transferred FEMA to the newly formed Department of Homeland
                 Security (DHS).

                 In FY 2004, FEMA spent almost $1 billion for goods and services.
                 Spending rose to almost $5 billion in FY 2005 and to more than $7
                 billion in FY 2006. Most of the increase in these 2 years was
                 attributable to the response to the 2005 Gulf Coast hurricanes. By
                 FY 2007, FEMA’s overall spending had fallen to about $1.5
                 billion; for FY 2008, it was $1.8 billion (see Figure 1).the

                 Figure 1: FEMA’s FY 2004–2008 Acquisition Spending
                                          FEMA’s Acquisition Spending

                           $8
                  Billions
                     of    6
                  Dollars
                            4

                            2

                            0
                             2004            2005          2006             2007      2008
                                                        Fiscal Year

                 Source: Federal Procurement Data System—Next Generation Data




             Improvements Needed in FEMA’s Disaster Contract Management 


                                       Page 2 

                              To meet urgent needs in past disasters, FEMA’s tendency has been
                              to acquire goods and services quickly, but with insufficient
                              attention to costs, definition of requirements, and competition.
                              Reports issued by Congress, the White House, Office of Inspector
                              General (OIG), and the Government Accountability Office (GAO),
                              among others, identified issues, including contracting deficiencies,
                              that have marred FEMA’s response capabilities (see Appendix C).

                              With so much spending, it is imperative that acquisition officials
                              take the steps necessary to ensure successful disaster contracting
                              outcomes. Recent audits have identified deficiencies, as well as
                              opportunities for improvement, in many aspects of FEMA’s
                              disaster acquisition process.1

                              This extensive body of work by the OIG and GAO has reported the
                              following disaster assistance issues:

                                   �	 FEMA could have reduced response costs for Hurricane Ike
                                      by as much as $18 million by consistently applying
                                      National Response Framework (NRF) principles.
                                   �	 Fraudsters can bypass FEMA’s current controls to obtain
                                      housing assistance and receive duplicate payments for
                                      bogus hotel expenses.
                                   �	 Contract documentation does not always explain the
                                      reasons goods or services were acquired, provide evidence
                                      of competition, or document contractor performance.
                                   �	 FEMA’s disaster acquisition process needs additional
                                      safeguards to protect assets and prevent and detect errors in
                                      the process.
                                   �	 DHS acquisition did not have the capacity to monitor
                                      contractor performance due to limited expertise and
                                      workload demands.

                              FEMA’s role in assisting disaster survivors is challenging. It
                              requires balancing the need to quickly provide goods and services
                              to those affected while maintaining public confidence that FEMA
                              is spending taxpayers’ money wisely and preventing fraud, waste,
                              and abuse. FEMA’s acquisition policies and procedures, the NRF,
                              and other disaster response manuals provide guidance on the
                              sourcing process. However, this guidance is sometimes short-
                              circuited when officials, such as political appointees or elected
                              representatives of the disaster area, use their influence to ensure

1
    For a list of related audits, see Appendix C.



                         Improvements Needed in FEMA’s Disaster Contract Management

                                                    Page 3
                         that goods and services are provided. While often well-meaning,
                         this pressure can result in waste when the goods or services are not
                         needed and can be disruptive to the sourcing process.2

                         Disaster response activities require close coordination and
                         cooperation among all levels of government, nonprofit
                         organizations, the private sector, and individuals. The NRF
                         defines key principles, roles, and structures of participants who
                         respond to incidents to ensure a coordinated, effective national
                         response. FEMA acquisition officials must respond quickly to
                         acquire goods and services to assist survivors, but they must do so
                         while complying with Federal Acquisition Regulation (FAR)
                         requirements and utilizing their emergency responder partners as
                         outlined in the NRF.

                         The Office of Federal Procurement Policy’s Emergency
                         Acquisitions Guide identifies the importance of clearly defining
                         roles and responsibilities among the various functions that support
                         emergency operations in order to ensure timely and effective
                         decisionmaking.3

                         For this audit, DHS OIG contracted with Foxx & Company to
                         evaluate the effectiveness of FEMA’s disaster contract
                         management. The audit objectives were to assess:

                             �	 FEMA’s ability to track, manage, and monitor disaster
                                contracts;
                             �	 What safeguards were included to reduce, deter, and detect
                                fraud, waste, and abuse;
                             �	 The level of communication and coordination within
                                FEMA and with other federal agencies and states regarding
                                disaster contracts; and
                             �	 The extent to which processes and controls have not been
                                followed and the impact on the delivery of goods and
                                services.

                         We reviewed 49 FY 2008 disaster contracts for compliance with
                         the FAR and with supporting and pertinent Acquisition
                         Management Division (AMD) policies and procedures.4


2
  DHS OIG: FEMA’s Sourcing for Disaster Response Goods and Services, OIG-09-96, August 2009.
3
  Office of Management and Budget, Office of Federal Procurement Policy: Emergency Acquisitions
Guide, May 2007.
4
  We had 50 contracts in our sample, but FEMA could not locate one of the contracts.



                    Improvements Needed in FEMA’s Disaster Contract Management

                                               Page 4
Results of Audit 

                 FEMA’s decisionmaking for awarding, managing, and monitoring
                 disaster contracts needs improvement. FEMA contracted for
                 goods and services that were not needed or were underutilized and
                 purchased several categories of items that it had not typically
                 purchased in the past.

                 Also, a better strategy is needed for planning and providing pre-
                 positioned contracts for required commodities of a recurring nature
                 and for multiple disasters.

                 Several of the contracts reviewed were not in compliance with the
                 FAR or AMD contracting policies and procedures for emergency
                 acquisitions. Several contracts had significant increases in the
                 funds obligated and expended after negotiation of the initial
                 contract amounts.

                 There was questionable decisionmaking in establishing the Joint
                 Field Office (JFO) in Brentwood, Tennessee, resulting in excessive
                 expenditures of federal funds and subjecting JFO employees to
                 potentially unsafe and unhealthy working conditions. The
                 decisions made in selecting and setting up this JFO exemplify the
                 problems with FEMA acquisitions and the need for improvements.

                 FEMA contracting officials generally agreed that improvements
                 are needed in FEMA’s management and administration of disaster
                 contracts. Actions are ongoing to correct deficiencies and improve
                 compliance with the FAR and FEMA’s policies and procedures.

                 FEMA provided written comments on the draft report (see Appendix B).
                 FEMA concurred with three of the five recommendations in this report
                 and provided corrective actions taken in response to our
                 recommendations We have included our analysis to FEMA’s response to
                 the two recommendations which they disagreed with in the appropriate
                 sections in the report. In addition, FEMA provided additional clarifying
                 comments which we have addressed and incorporated in the report as
                 appropriate.

     Acquired Goods and Services
                 FEMA did not always follow proper procedures or appropriately
                 estimate the required goods and services for disasters. As a result,




             Improvements Needed in FEMA’s Disaster Contract Management

                                       Page 5
                        goods and services were acquired that were either not needed or
                        were significantly underutilized, wasting taxpayer dollars.

                        Contracting specialists need to work closely with program and
                        project managers in their agency who may be called on during an
                        emergency. They should also work with other personnel who
                        support the acquisition process—including information technology
                        specialists, financial management officials, logistics personnel, and
                        legal counsel—to develop a common and coordinated
                        understanding of how to meet the government’s needs during an
                        emergency. Working together, these personnel can review
                        historical data to identify the products and services that the agency
                        has been called on to provide during past emergencies. If FEMA
                        officials had taken such steps, the following problems might have
                        been avoided.5

                        Mobile Medical Units

                        After Hurricane Ike made landfall, Galveston Island was without
                        functioning medical facilities and the state requested that FEMA
                        acquire mobile medical units. Under the NRF, medical needs are
                        the primary responsibility of the Department of Health and Human
                        Services (HHS). FEMA worked with HHS to acquire the
                        requested units, which were to be supported by local medical staff.
                        FEMA leased and sent to the island two mobile surgery units and
                        one mobile recovery unit for 60 days at a contract cost of $1
                        million. However, the units were never used. In addition,
                        according to the HHS contracting office technical representative,
                        the state university hospital and health services did not have the
                        staff to support the units, and much of the population had access to
                        other facilities on the mainland. The contract file did not
                        document why this information was not available prior to the
                        contract being awarded. After 30 days, the state determined that
                        the units were not going to be used. FEMA terminated the contract
                        for the convenience of the government at a cost of $470,000. The
                        contracting officer told us that this was an example of “jumping”
                        on a request before FEMA was sure there was a need. While it is
                        difficult to criticize a decision that might have saved lives, in the
                        future FEMA should carefully consider all alternatives and assess
                        whether there is a real need and personnel are available to operate
                        the facilities before committing to such a costly acquisition.


5
 Office of Management and Budget, Office of Federal Procurement Policy: Emergency Acquisitions
Guide, May 2007.



                    Improvements Needed in FEMA’s Disaster Contract Management

                                              Page 6
    Figure 2: Mobile Medical Unit




    Source: FEMA photo library

    Base Camps

    FEMA contracted for two base camps in Texas to house and feed
    emergency personnel after Hurricane Ike, which did not operate
    near capacity. The first base camp, at Scholes Airport, was
    contracted at the request of JFO leadership. The second base
    camp, at Orange County Airport, was requested by DHS
    headquarters senior leadership, over the objections of the JFO
    leadership. The initial task orders were for $4.7 million and $4
    million for each base camp, respectively, to operate for 30 days.
    Each base camp was to house 500 occupants and provide 1,500
    meals per day. For the first 30 days, there was an average of 310
    occupants and 632 meals served for the first camp, and only 236
    occupants and 320 meals served for the second camp.

    Figure 3: Base Camp




    Source: FEMA photo library



Improvements Needed in FEMA’s Disaster Contract Management

                          Page 7
                         According to FEMA, once the base camps were activated there
                         was no way to change the size of the base camps or meals to meet
                         actual needs. In spite of the underutilization, FEMA extended the
                         duration of both base camps for more than 30 days, adding $4.4
                         million and $4.1 million, respectively, to each task order.
                         However, FEMA did not need to extend both base camps beyond
                         the first 30 days when one base camp could have handled the
                         actual occupancy for both camps. Thus, FEMA could have
                         avoided spending more than $4 million by consolidating its
                         requirements into one base camp.

                         In addition, there were two significant issues associated with the
                         base camps that indicate FEMA was not properly managing
                         contracts:

                             �	 JFO and other nonauthorized FEMA staff, who were
                                receiving per diem to cover meals and incidentals, were
                                using the base camps to obtain free meals and services.
                             �	 One onsite technical representative did not always stay at
                                the base camp but signed the daily logs as though he were
                                there. Another technical representative did not sign any of
                                the daily logs.6

                         Underutilization of base camps and wasted taxpayer dollars has
                         been an issue for some time. GAO reported in March 2006 that
                         better management of requirements development could have
                         avoided costs to house workers and survivors after Hurricanes
                         Katrina and Rita. Based on information provided by local
                         officials, FEMA spent $3 million for 4,000 base camp beds that
                         were never used.7 Two months later, GAO issued testimony
                         identifying practices in the public and private sectors that can help
                         federal agencies better manage their disaster-related procurements.
                         These practices included establishing a scalable operations plan to
                         adjust the level of capacity required to respond to needs.8

                         A 2009 OIG report also cited the problem of base camp capacity
                         exceeding demand. This report stated that, against the advice of
                         FEMA’s emergency managers at the disaster site’s JFO, a DHS

6
  Daily logs document the base camp occupancy and meal and laundry counts. 

7
  GAO Briefing: Agency Management of Contractors Responding to Hurricanes Katrina and Rita, GAO­

06-461R, March 2006.
 

8
  GAO Testimony: Hurricane Katrina: Improving Federal Contracting Practices in Disaster Recovery
 

Operations, GAO-06-714T, May 4, 2006.



                    Improvements Needed in FEMA’s Disaster Contract Management

                                               Page 8
                          headquarters official ordered a 500-person base camp (the Orange
                          County Airport base camp discussed above) for a location only 30
                          miles from an existing 2,000-person base camp. This report found
                          that FEMA incurred about $5 million in costs to open and operate
                          the second camp.9

                          To improve base camp planning and acquisitions, in May 2009,
                          FEMA implemented a Concept of Operations for FEMA
                          Responder Support Camps that will enable FEMA to better size
                          base camps to meet actual needs, versus being locked into initial
                          estimates of quantity and duration.

                          Mobile Sleeper Units

                          Another contract was authorized to provide mobile sleeper units
                          for a period not to exceed 30 days. The state requested the mobile
                          sleepers to provide accommodations for first responders and
                          volunteers. However, the manager of the base camp determined
                          that the sleepers were not needed, and they were never set up. As
                          discussed above, there was significant excess capacity at the two
                          base camps in the vicinity, which FEMA should have been aware
                          of, negating the need for the mobile sleepers. FEMA terminated
                          the contract for the mobile sleeper units for the government’s
                          convenience, incurring an expense of more than $637,000. This
                          expense could have been avoided had there been better planning,
                          communications, and coordination.

                          Conclusion

                          FEMA did not always follow proper procedures or appropriately
                          estimate the goods and services needed for disasters. As a result,
                          FEMA contracted for goods and services that exceeded the
                          disasters’ needs and for goods and services not used at all. In
                          response to pressure from internal and external officials, FEMA
                          officials made decisions that were not necessarily based on actual
                          need or a request from the affected state, including mobile
                          sleepers, hospital units, or base camp contracts. Because of these
                          decisions, the most cost-effective acquisition of goods and services
                          was not achieved, and FEMA expended millions for goods and
                          services that were never used.




9
    DHS OIG: Management Advisory Report: FEMA’s Response to Hurricane Ike, OIG-09-78, June 2009.



                      Improvements Needed in FEMA’s Disaster Contract Management 


                                                Page 9 

Recommendation
      We recommend that the Administrator of FEMA:

      Recommendation #1: Adhere to the National Response
      Framework principles by clarifying the authority of federal, state,
      local, and regional emergency managers and ensure, to the extent
      possible, that acquisitions are based on accurate estimates of needs.

Management Comments and Contractor Analysis
      FEMA concurs with this recommendation. FEMA will review
      existing processes and procedures to facilitate better coordination
      with the above mentioned officials.

      Contractor Analysis: We consider FEMA’s planned action to
      review existing processes and procedures to facilitate better
      coordination and adherence to the National Response Framework,
      responsive to the recommendation. Therefore, the
      recommendation is resolved and open pending FEMA’s successful
      coordination efforts, which the OIG will continue to monitor.

      Within their comments to the draft report, FEMA disagreed with a
      specific example cited in the report which stated that FEMA could
      have avoided spending over $4 million by consolidating its base
      camp requirements from two 500 person base camps into one 500
      person base camp. FEMA cited that during the first 30 days of use
      the two 500 person camps averaged 310 and 236 occupants and
      thus this total of 546 could not have been housed at one 500 person
      camp. FEMA also stated that the two camps were established in
      two different, geographically distinct, Texas counties in order to
      best meet the needs of the responders.

      We disagree with FEMA’s objection to consolidating the two base
      camps mentioned in the report. Our report stated that “FEMA did
      not need to extend both base camps beyond the first thirty days
      when one base camp would have more than handled the actual
      occupancy at both camps.” This is based on the fact that at the end
      of the first 30 days, the average occupancies dropped to 197 and
      158 occupants, respectively, for a total of 355 persons. The 355
      persons could have been housed at one 500 person base camp.




  Improvements Needed in FEMA’s Disaster Contract Management 


                            Page 10 

    In addition, FEMA stated that the two 500 person base camps were
    in two different, geographically distant counties. One was located
    at the Scholes International Airport in Galveston, Texas. The other
    facility was at the Orange County Airport near Beaumont, Texas.
    While these two camps are over 100 miles away from each other,
    the Orange County base camp was within 25 miles of a third, 2,000
    person base camp already operating in Beaumont, Texas. This
    Beaumont base camp could have accommodated the 158 occupants
    who remained after the first 30 days at the Orange County Airport
    base camp. In fact, the FEMA Federal Coordinating Officer and
    Logistics Section Chief who were on site at the disaster had
    objected to even opening the Orange County Airport base camp
    since the Beaumont base camp was only 25 miles away. The field
    officials told us that they were overruled and ordered by a senior
    DHS headquarters official to open the Orange County Airport base
    camp.

    In its response, FEMA stated that it had implemented the Concept
    of Operations for FEMA Responder Support Camps in May 2009
    to improve base camp planning and acquisitions. This document
    introduced the concept of modular and scalable base camps and
    clarifies the process for defining the requirements for base camps.
    It appears that this document will address many of the problems
    which the OIG, GAO, and others have identified with base camps.
    However, the OIG will continue to monitor its implementation and
    effectiveness.




Improvements Needed in FEMA’s Disaster Contract Management 


                          Page 11 

        Costs Incurred for Acquisitions
                        Costs were incurred for goods and services of a questionable
                        nature. FEMA officials were requested to purchase items typically
                        provided by other organizations because these entities, or the state
                        itself, did not have funding to purchase the items.

                        According to FEMA’s response and recovery policy and
                        procedures, first response to a disaster is the job of local
                        government’s emergency services with help from nearby
                        municipalities, the state, and volunteer agencies. In a disaster, and
                        if the governor requests, federal resources can be mobilized
                        through FEMA for search and rescue, electrical power, food,
                        water, shelter, and other basic human needs.

                        In July 2009, FEMA’s Administrator stated that organizations at
                        every level of government, as well as those within the private and
                        voluntary sectors, need to make investments of time and money to
                        prepare for emergencies. In addition, the Nation’s citizens and
                        families must recognize and embrace their own responsibilities to
                        be prepared. FEMA reported in July 2009 that only half of
                        Americans have put together an emergency kit and only 40% have
                        created a family emergency plan. Every family should take the
                        most basic preparedness actions, such as having sufficient water
                        and nonperishable food to support the family for at least 72 hours.
                        The public’s inadequate preparation pulls responders and critical
                        resources away from those who truly need such assistance, both
                        the casualties of the disaster and the most vulnerable populations,
                        such as persons with disabilities and children.10




10
   Testimony of Craig Fugate, FEMA Administrator, before the House Committee on Transportation and
Infrastructure, Subcommittee on Economic Development, Public Buildings and Emergency Management,
Post-Katrina: What It Takes to Cut the Bureaucracy and Assure a More Rapid Response After a
Catastrophic Disaster, July 27, 2009.



                    Improvements Needed in FEMA’s Disaster Contract Management

                                              Page 12
    Figure 4: FEMA’s Recommended Emergency Supplies




    Source: FEMA photo library

    Response activities require close coordination and cooperation
    among all levels of government, nonprofit organizations, the
    private sector, and individuals. As reported earlier, the Nation’s
    disaster response playbook, the NRF, provides guidelines for first
    responders at all levels. Local, state, and federal emergency
    management professionals coordinate the disaster response. The
    NRF also recognizes that elected and appointed officials at all
    levels have significant roles and responsibilities in disaster
    response. FEMA could reduce costs by consistently applying NRF
    principles and redirecting political influence on operational
    decisions.

    Mobile Homes

    After Hurricane Ike devastated Galveston Island, a FEMA
    headquarters official instructed field office staff to award a
    contract to provide mobile homes and “to get it done at all costs.”
    The official instructed this to be done so local residents and the
    media would see mobile homes arriving in the disaster area one
    week sooner than would have occurred using the Individual
    Assistance-Technical Assistance Contract (IA-TAC) process for
    providing mobile homes. FEMA paid more than $1 million to haul
    and install 25 mobile homes for the disaster survivors.

    It should be noted that after the field officials acquiesced to the
    FEMA headquarters’ instructions, it was discovered that only five
    mobile homes were available to install at that time. Therefore,



Improvements Needed in FEMA’s Disaster Contract Management

                         Page 13
    FEMA had to locate and transport the additional 20 homes to
    fulfill the demands of the headquarters official. Because FEMA
    was paying for expedited services, the price per mobile home
    exceeded the government’s independent cost estimate by 264%.
    Had FEMA used the IA-TAC contract process, mobile homes
    would have arrived in about 10 days and FEMA would have saved
    more than $700,000.

    FEMA officials provided us with information on the new IA-TAC
    contract process – IA-TAC III—that was awarded in May 2009.
    The officials said that the new IA-TAC contract will streamline the
    process of providing temporary housing units, enable FEMA to
    respond faster to the housing needs of survivors, and be more cost-
    efficient. The officials also stated that FEMA is in the process of
    developing playbooks for the FEMA regions so that the roles,
    responsibilities, and key contact points for utilities, medical, fire,
    police, and other services are known before a disaster, allowing the
    regions to react more efficiently.

    Apartment Leases

    In September 2008, FEMA awarded a task order for leasing 83
    apartments for FEMA staff deployed for Hurricane Ike in the
    Austin, Texas, area because disaster survivors were using local
    hotel rooms. The daily lease cost for each apartment was $175, or
    a monthly total of $5,250 per apartment. The current daily
    government rate for hotels is $107 per night in the Austin area,
    which equates to $3,210 per month. As of May 2009, FEMA
    employees were still using some of the apartments, even though
    hotel rooms were available. FEMA has no policy or process to
    assess employees’ housing at a disaster site to ensure that the least
    expensive option is used. FEMA officials believe that employees
    working long hours at disaster sites should have comfortable
    housing and not be made to relocate continuously.

    Other Purchases

    Two contracts totaling almost $300,000 provided for the purchase
    and delivery of baby and adult diapers, baby wash and shampoo,
    baby food, and female hygiene products to food banks in the Baton
    Rouge, Louisiana, area after Hurricane Gustav. The state did not
    have the resources to purchase the items and requested that FEMA
    purchase them. Normally FEMA does not purchase these types of
    items. The field contracting official questioned using federal funds
    for this purchase but was overruled by FEMA headquarters. This


Improvements Needed in FEMA’s Disaster Contract Management

                         Page 14
                           issue of purchasing items typically not funded by FEMA is not
                           new. During the aftermath of Hurricane Katrina, a FEMA official
                           said that state officials requested the purchase of $3 million of
                           Pedialyte.11 He, too, questioned whether FEMA should purchase
                           this, but he was directed to do so by FEMA headquarters officials.
                           FEMA acquired the Pedialyte, but it was never used. When it
                           expired, it was thrown out.

                           Conclusion

                           FEMA’s role in assisting disaster survivors is very challenging. It
                           requires balancing the need to provide assistance to those affected
                           by the disaster while maintaining public confidence that FEMA is
                           spending money wisely and preventing fraud, waste, and abuse.

                           FEMA could have reduced costs by consistently applying NRF
                           principles on operational decisions, which should originate with,
                           and be decided by, the local, state, and federal emergency
                           managers on the ground.

                           In addition, FEMA does not have policies and procedures to define
                           what contracting officials may or may not purchase. Senior FEMA
                           officials told us that they will buy or obtain anything a state or
                           local government requests, as long as it is legal, and that
                           Acquisition Management Division’s (AMD) responsibility is to
                           acquire what is requested and not question the need. This attitude
                           may result in FEMA’s purchase of items that local, state, and tribal
                           governments, as well as charitable organizations, typically provide,
                           as these entities view FEMA as the “deep pockets” after a disaster.
                           If FEMA becomes the default purchaser in response to disasters,
                           more and more questions may arise about FEMA purchasing
                           decisions.

                           In addition, due to the downturn in our Nation’s economy, many
                           states and localities are likely to become even more financially
                           strapped. For example, a recent National League of Cities survey
                           reported that almost 90% of cities said they are less able to meet
                           their financial needs in 2009 than they were the year before.12
                           Thus, in future disasters more of a burden may fall on FEMA to

11
   Pedialyte is an oral electrolyte maintenance solution to replace fluids and electrolytes and help prevent
dehydration in infants and children.
12
   National League of Cities: City Fiscal Conditions in 2009, September 2009. This report is based on a
national survey of finance officers in U.S. cities conducted in the spring-summer of each year; 335 city
finance officers responded to this recent survey.



                      Improvements Needed in FEMA’s Disaster Contract Management

                                                   Page 15
      provide resources that were once the responsibility of state and
      local governments and volunteer organizations. This state of
      affairs makes it more crucial for FEMA to better define and
      delineate its disaster response roles and responsibilities.

Recommendation
      We recommend that the Director, Acquisition Management
      Division:

      Recommendation #2:

          �	 Require the contracting officer to document in the contract
             file any purchase made when a recommendation by field
             staff not to make the purchase is overruled by a
             headquarters official.
          �	 Develop after action reports for each major disaster that (1)
             identify goods and services purchased; (2) identify goods
             and services not needed or underutilized; and (3) discuss
             the justifications for such purchases.
          �	 Develop criteria to assess employees’ housing at a disaster
             site at least twice a year to ensure that the most cost
             effective option is being used.

Management Comments and Contractor Analysis
      FEMA non-concurs with the recommendation stated in our draft
      report, which was that FEMA develop criteria to define the
      commodities it may purchase for disaster response. FEMA stated
      in its response that it must have the flexibility to respond to unique
      requirements including possible limitations that some of its
      partners may experience due to resource shortfalls. FEMA added
      that it has the authority to purchase any type of commodity that is
      not unauthorized or otherwise illegal. Therefore, FEMA stated
      that defining the types of commodities that FEMA can purchase is
      considered redundant and unnecessary. FEMA also stated that the
      draft report indicated that FEMA made purchases that it normally
      did not buy, yet this is not the equivalent of stating that FEMA had
      no authority to make such purchases or that purchases were not
      appropriate under the circumstances.

      With respect to the housing aspect of the recommendation, FEMA
      stated that it houses employees during a disaster where it can and




  Improvements Needed in FEMA’s Disaster Contract Management

                           Page 16
    added that at no time did FEMA violate the housing per diem that
    was established.

    Contractor Analysis: The report did not intend to state or imply
    that FEMA had purchased any type of commodity that was not
    authorized or otherwise illegal. The report stated that FEMA
    officials made decisions that resulted in the Federal government
    incurring costs for goods and services that had not been purchased
    before or were questioned by FEMA field personnel.

    FEMA’s official position is to buy or obtain anything that is
    requested by a state or local government, without questioning the
    need, as long as it is legal. Thus, it is logical that FEMA would not
    see the need for preparing a list of commodities and or services
    that it may purchase. However, this policy has had the effect of
    FEMA becoming the nation’s “deep pockets” after a disaster. We
    found numerous examples where FEMA field officials questioned
    the justification for purchasing certain items. However, when
    objections were raised further up the chain of command, the people
    questioning the request were told to procure whatever was
    requested.

    We identified several examples where purchases were made, not
    because the purchases were actually needed, but because:

        �	 FEMA “jumped” on a request before a need was 

           established.

        �	 Pressure was exerted from internal and external officials.
        �	 Officials wanted the local residents and media to see
           activity was occurring.

    We recognize that addressing the concept of what FEMA should or
    should not purchase after a disaster declaration is controversial and
    raises significant philosophical questions. As we stated in our
    report, FEMA is placed in a difficult position of balancing the need
    to provide assistance while maintaining the public trust that the
    taxpayer’s money is being spent wisely and with sound financial
    responsibility and accountability. However, it is imperative that
    FEMA carefully consider what is being purchased to ensure that it
    is a necessary expense and not a waste of taxpayer money.

    Our report documents financial problems facing our Nation’s
    cities. In addition, the National Association of State Budget
    Officers recently issued a report which stated that “States are


Improvements Needed in FEMA’s Disaster Contract Management

                         Page 17
                         currently facing one of the worst, if not the worst, fiscal periods
                         since the Great Depression.”13 The report stated that the states’
                         fiscal year 2010 budget gap is almost $15 billion and could be as
                         high as about $22 billion in 2011. Because cities and states are
                         under so much financial pressure, FEMA is being called on to buy
                         goods that commonly were provided to survivors by local and state
                         governments. Given this bleak financial situation, FEMA must
                         spend the taxpayer’s dollars wisely and where it is needed, not on
                         the basis of political pressure.

                         After considering FEMA’s comments to our draft report, we
                         revised this recommendation to recommend that FEMA prepare
                         after action reports that identify the costs and types of commodities
                         and services purchased after each major disaster. At a minimum,
                         these reports should identify the types of services or commodities
                         purchased, total cost, and an assessment of services and
                         commodities that were underutilized or not used at all. In time,
                         these reports will provide an inventory of the magnitude and types
                         of goods and services that FEMA is procuring and are needed and
                         minimize the unnecessary and underutilized purchases identified in
                         the reports. This information should also be shared among FEMA
                         headquarters and field personnel for the development of lessons
                         learned or best practices.

                         We recognize that FEMA’s response for not wanting to develop
                         criteria for what they will purchase is based on the premise that
                         they will purchase anything that is legal and requested by a state or
                         local entity. However, given the need for sound financial
                         purchases and accountability, FEMA needs to identify patterns or
                         types of products or services purchased and those that were not
                         used or necessary.

                         The requirement to document decisions by headquarters officials to
                         overrule the recommendation by staff on site not to buy an item
                         does not need to be an onerous or bureaucratic one, but, at a
                         minimum, should include a memo that states who made the
                         decision to overrule the decision in the field and why. This memo
                         then should be placed in the contract file.

                         Regarding whether FEMA should house employees in apartments
                         or hotels, we did not intend to report or imply that FEMA violated
                         housing per diem. We also understand that short term housing

13
  The National Association of State Budget Officers (NASBO) has served as the professional membership
organization for state finance officers for more than sixty years.



                    Improvements Needed in FEMA’s Disaster Contract Management

                                               Page 18
      such as hotels in the immediate disaster area are reserved for
      survivors and that FEMA had to acquire apartments at the time of
      the disaster – September 2008 – to house employees. Our report
      stated that employees were still using the higher price apartments
      in May 2009 even though less expensive hotel lodging was then
      available. Our finding and recommendation was for FEMA to
      develop criteria to assess employees’ housing options in the
      months subsequent to the initial disaster response to ensure that the
      most cost effective option is used and thus Federal funds are better
      spent.

      This recommendation is considered unresolved and open until
      FEMA develops and implements the after action reporting process,
      justification process for overruling FEMA field staff decisions, and
      the criteria to assess employees’ housing at a disaster site, and until
      the OIG reviews and accepts these processes and policies.

Improvements Needed in Pre-planning and Pre-positioning
of Contracts
      Improvements are needed to FEMA’s process of pre-planning and
      pre-positioning of contracts for necessary goods and services of a
      recurring nature. FEMA has not identified all needed pre-
      positioned contracts for goods and services required for a disaster.
      Also, FEMA has not properly planned for access to suppliers who
      could provide cost-effective and efficient options for commodities
      needed in multiple disasters.

      According to FAR 26.203, in anticipation of potential emergency
      response requirements, agencies involved in response planning
      should consider awarding emergency response contracts before a
      major disaster or emergency occurs to ensure immediate response
      and relief. These contracts should be structured to respond to
      immediate emergency response needs, and should not be structured
      in any way that may inhibit the transition of emergency response
      work to local firms.

      The OIG issued guidance in October 2008 on managing disaster-
      related project costs. This guide addressed how to (1) document
      and account for disaster-related costs, (2) minimize the loss of
      FEMA disaster assistance program funds, (3) maximize financial
      recovery, and (4) prevent fraud, waste, and abuse of disaster




  Improvements Needed in FEMA’s Disaster Contract Management 


                            Page 19 

                        funds.14 In addition, GAO has recommended practices for better
                        managing disaster procurements that include developing
                        knowledge of contractor capabilities and prices by identifying
                        commodities and services and establishing vendor relationships
                        before they are needed.15

                        As demonstrated by the following situations, FEMA’s pre-
                        positioned contracts were not adequate to handle disaster
                        requirements.

                        Self-help Tarps

                        In our sample, four contracts were awarded to various vendors for
                        self-help tarps. FEMA officials informed us that additional
                        contracts were awarded at the same time to other vendors. The
                        tarps, approximately 20 x 25 feet, are distributed to hurricane
                        survivors to temporarily cover leaking roofs. Following
                        Hurricanes Ike and Gustav, the supply of self-help tarps at
                        FEMA’s distribution centers was quickly exhausted and FEMA’s
                        contractor was unable to quickly provide more tarps. FEMA
                        contracting officials located and purchased all available tarps from
                        multiple sources. FEMA officials said they were successful in
                        meeting the demand. However, we noted that tarps were
                        purchased in different sizes and at different prices. There were
                        also some delivery problems that increased costs. FEMA
                        distribution facilities generally have enough self-help tarps to meet
                        demand, but the two hurricanes occurring together caused a
                        shortage. FEMA should consider a solution, such as prearranged
                        sources or increased stocking levels, so it is prepared for multiple
                        disasters in the future.

                        Aerial Photography

                        FEMA awarded Fugro EarthData a sole source contract to interpret
                        aerial photographs and document the damage related to Hurricane
                        Ike in coastal and low-lying areas in Texas (see Figure 5). The
                        goal of the contract was to determine the inland extent of damage
                        caused by storm-surge-induced flooding as well as the damage
                        caused further inland by wind forces. The contract file
                        documentation stated that the procurement was based on unusual
                        and compelling urgency, and a sole source justification and

14
 DHS OIG: Audit Tips for Managing Disaster-Related Project Costs, October 2008.
15
 GAO Testimony: Hurricane Katrina: Improving Federal Contracting Practices in Disaster Recovery
Operations, GAO-06-714T, May 4, 2006.



                    Improvements Needed in FEMA’s Disaster Contract Management

                                             Page 20
    approval was prepared and approved by the contracting officer and
    the Office of Chief Counsel. However, no controls were in place
    to ensure that a fair and reasonable price was obtained. The
    proposal in the contract file did not include cost or price details,
    such as labor rates, hours, indirect rates, or profit.

    Section 6.303-1(a) of the FAR states, “A contracting officer shall
    not commence negotiations for a sole source contract, commence
    negotiations for a contract resulting from an unsolicited proposal,
    or award any other contract without providing for full and open
    competition unless the contracting officer (1) Justifies, if required
    in 6.302, the use of such actions in writing; (2) Certifies the
    accuracy and completeness of the justification; and (3) Obtains the
    approval required by 6.304.”

    The interpretation of aerial photographs has not always been used
    for past disasters but has become more prevalent during recent
    hurricanes. Consequently, FEMA may want to evaluate and
    determine if a pre-positioned contract for these services may be
    beneficial for future disasters.

    Figure 5: Aerial photograph of Hurricane Ike damage




    Source: FEMA photo library

    Flood Map Needs

    During the November 2007 California wildfires, FEMA made two
    modifications to an existing contract with Michael Baker, Jr., Inc.
    Baker’s original contract was to develop, plan, implement, and
    monitor an initiative known as Multi-Hazard Flood Map



Improvements Needed in FEMA’s Disaster Contract Management

                         Page 21
                       Modernization for flood hazard mitigation across the United States
                       and its territories. Specifically, the base contract provided FEMA
                       support in conducting a large-scale overhaul of the Nation’s flood
                       hazard maps. The work included data collection and analysis, map
                       production, product delivery, and effective program management.

                       According to FEMA acquisition personnel, there were no pre­
                       existing or pre-positioned contracts for the aerial photography
                       needed to support the California wildfires. Consequently, FEMA
                       decided to amend Baker’s original contract to provide geospatial
                       services for the duration of response and recovery efforts for the
                       California wildfires. The base contract was amended instead of
                       soliciting bids from other sources because the information needed
                       for these projects came from the database that Michael Baker
                       managed for FEMA under the base contract. A FEMA contracting
                       official said Baker could do the work faster and cheaper than any
                       other contractor could; and no other contractor had the expertise,
                       familiarity, and experience needed to support FEMA’s geospatial
                       needs in a timely manner.

                       However, FEMA did not prepare sole source justifications for the
                       two modifications as required by FAR 6.303-2, or post the
                       procurement on the federal procurement opportunities website as
                       required by FAR 5.2.16 The contracting officer agreed that the
                       contract modifications were sole source procurements and those
                       justifications should have been prepared and approved for the
                       procurements. He also agreed that the procurements should have
                       been posted on the website.

                       Portable Equipment Leasing

                       Another contract in our sample was a sole source emergency
                       contract to M.A.S.S. Services, a portable equipment leasing
                       company, to provide portable shower units following Hurricane
                       Ike in Louisiana. Emergency workers deployed to a disaster
                       recovery center had not showered for days because no showers
                       were available near their location. Two six-head portable showers
                       were provided for 14 days for $72,072. A few days later, one six-
                       head shower unit was provided to another location for 28 days for

16
   The federal procurement opportunities website is defined in FAR 5.201 where it states that the
contracting officer must transmit a notice to the Government Point of Entry (GPE) for certain proposed
contract actions. The GPE may be accessed via the Internet at http://www.fedbizopps.gov. FedBizOpps
is the single, web-enabled resource that lists and provides detailed information on all federal
procurement opportunities over $25,000.



                  Improvements Needed in FEMA’s Disaster Contract Management

                                              Page 22
      $81,984. Although contracting staff did what they could to ensure
      quick delivery of the showers at reasonable prices, both delivery
      time and prices might have been improved had the contract for
      portable showers been awarded and pre-positioned before the
      disaster, under either national or regional contracts. FEMA should
      evaluate and determine if a pre-positioned contract for portable
      showers may be beneficial for future disasters.

      Conclusions

      Some of FEMA’s disaster contracts for recurring services were
      costly and inefficient. As a result, some commodities were not
      available when needed for the disasters, and those acquired were
      not supported by documentation showing that the contracting was
      done in a cost-effective manner and according to the FAR and
      FEMA policy. FEMA needs better preplanning for backup sources
      in multiple disasters. FEMA says, “every disaster is different.”
      Nonetheless, there are so many similarities that FEMA should
      “learn lessons” and not repeat inefficient acquisitions.

Recommendation
      We recommend that the Director, Acquisition Management
      Division:

      Recommendation #3: Direct FEMA contracting specialists to
      improve coordination with operations and logistics and other
      personnel who support the acquisition process. Coordinate with
      FEMA directorates to develop a common and coordinated plan for
      how to meet the government’s needs during an emergency and
      when emergency supplies in warehouses are exhausted. FEMA
      should also consider communicating with stakeholders in the
      General Services Administration, the Defense Logistics Agency,
      and the U.S. Corps of Engineers who may have their own standby
      contracts for disaster-related commodities and services.

Management Comments and Contractor Analysis
      FEMA concurs with this recommendation. FEMA is undertaking a
      review of certain contracts for recurring items and services to
      determine whether such requirements should be placed under a
      pre-positioned contract or under a contractual vehicle that will
      permit acquisitions at a fair and reasonable price/cost.




  Improvements Needed in FEMA’s Disaster Contract Management

                           Page 23
                          Contractor Analysis: We consider FEMA’s planned action
                          responsive to the recommendation. Therefore, the
                          recommendation is resolved and open pending FEMA’s issuance
                          and the OIG’s review of the results of its analysis of contracts for
                          recurring items.

                  Improvements Needed in Contract Management
                          Several of the contracts reviewed did not comply with the FAR or
                          FEMA contracting policies and procedures for emergency
                          acquisitions. In addition, several contracts had significant
                          increases in the funds obligated and spent after negotiation of the
                          initial contract amounts.

                          FAR and FEMA Guidance

                          An OIG report on FY 2007 disaster contracts found that FEMA
                          was not in compliance with FAR or AMD contracting policies and
                          procedures for emergency acquisitions. Most of the contracts
                          reviewed needed more documentation to explain why the goods or
                          services were acquired, provide evidence of competition, and
                          document contractor performance. The report stated that FEMA
                          did not follow acquisition process safeguards such as including
                          documentation justifying sole source awards, verifying proof of
                          inspection of goods, or completing the checklists of required
                          contract documentation.17

                          Generally, there were improvements between the FY 2007 and
                          2008 contracts sampled. AMD’s new contract file management
                          system contained all but one file in our sample, and more of the
                          contracts used the required checklists. However, several contracts
                          needed more documentation to explain why some of the goods and
                          services were acquired, and why contract costs increased
                          significantly.

                          Section 4.801(b) of the FAR states that the documentation in the
                          contract files shall be sufficient to constitute a complete history of
                          the transaction for:

                              �	 Providing a complete background as a basis for informed
                                 decisions at each step in the acquisition process,

17
     DHS OIG: Challenges Facing FEMA’s Disaster Contract Management, OIG -09-70, May 2009.




                     Improvements Needed in FEMA’s Disaster Contract Management 


                                               Page 24 

        �	 Supporting actions taken,
        �	 Providing information for reviews and investigations, and
        �	 Furnishing essential facts in the event of litigation or
           congressional inquiries.

    Similar to the FY 2007 contracts we reviewed, some of the 2008
    contracts were handled by multiple contracting officials. The high
    turnover of contracting officials results in contracts being handed
    over multiple times to new contracting officials with no knowledge
    of the acquisition’s history. This situation, coupled with the lack
    of contract documentation, does not allow reviewing officials to
    determine whether the federal government received the contracted
    goods and services or that fraud, waste, and abuse did not occur.

    In addition, FAR 1.602.2 states that contracting officers are
    responsible for ensuring performance of all necessary actions for
    effective contracting, ensuring compliance with the terms of the
    contract, and safeguarding the interests of the United States in its
    contractual relationships. Because of the high turnover of FEMA
    contracting officials, it is imperative that each official, while
    responsible for a contract, document all activities to enable the
    next contracting official to manage the contract effectively and
    efficiently.

    Most of the files we reviewed did not document whether the
    contractor performed as contracted. Some contracting officials
    told us that they monitored performance by telephone, which is not
    adequate proof that the federal government actually received the
    contracted goods and services. Senior FEMA officials
    acknowledged that monitoring contractor performance is a
    problem that needs to be addressed.

    In August 2008, FEMA issued a standard operating procedure
    (SOP), Labeling and Organizing Official Contract Files, which
    instructs employees to prepare and maintain relevant acquisition
    documents supporting all award and modification decisions and
    actions. This SOP provided a contract file checklist of acquisition
    documents to be included in the contract file. In January 2009,
    FEMA began to conduct internal audits of contract files and is
    using the reports from these audits to address and correct contract
    file deficiencies. In addition, in May 2009 FEMA issued a revised
    Disaster Contracting Guide that specifies the roles and
    responsibilities of the contracting official involved in the
    procurement process. It covers the entire process, from submittal



Improvements Needed in FEMA’s Disaster Contract Management

                         Page 25
               of a requisition through receipt of the services or supplies and
               payment to the vendor. This guide should assist FEMA
               contracting officials in continuing to improve contract
               management.

               Contract Cost Increases

               Several contracts had significant increases in the federal funds
               obligated and expended after negotiation of the initial contract
               cost. However, explanations for the increases were not discernable
               in the contract documentation. In addition, we could not determine
               whether such increases violated competition requirements for
               federal acquisitions. Furthermore, in numerous cases, FEMA did
               not conduct independent cost estimates, or the price analyses were
               missing from the files. Some examples of the funding increases
               are shown in Table 1.

               Table 1: Contract funding increases
                               Original
                               Contract       Funding        Total          Percentage
 Company        Services       Amount         Added          Obligated      Increase
                Housing
 Alltech        inspections         $83,653    $3,095,154     $3,178,807       3700%
 Crowne         Hotel
 Plaza          lodging             $53,000      $585,447       $638,447       1105%
                Electrical
                upgrades
 Hawkeye        for mobile
 Electric       homes               $50,000      $500,000       $550,000       1000%
                Portable
                toilets and
                hand-
 Murillo        washing
 Modular        stations          $100,000       $393,500       $493,500        394%

 Roto
 Rooter         Plumbing            $25,000        $70,000        $95,000       280%
 PaTH,
 LLC            IA-TAC         $17,689,290 $12,738,916 $30,428,206                72%
Source: FEMA contract files and Foxx & Company analysis

               FEMA officials said funding was added to the Alltech and PaTH
               contracts because they had underestimated the extent of the
               disaster damage. Therefore, more inspections and housing units
               were needed. FEMA officials added that the Alltech and PaTH
               contracts were awarded under indefinite delivery indefinite


           Improvements Needed in FEMA’s Disaster Contract Management

                                    Page 26
                           quantity contracts and incremental funding was how these
                           contracts are designed to work.18 The needs for the other four
                           contracts listed above were also underestimated, and thus
                           modifications were used to add funding. Murillo Modular and
                           Crowne Plaza contracts had justifications and approvals for their
                           awards; Roto Rooter and Hawkeye Electric were awarded under
                           full and open competition.

                           The contract with Crowne Plaza was awarded to provide housing
                           for survivors of the Iowa flooding. It was needed to secure
                           alternate housing after mold was discovered in the mobile homes
                           FEMA provided for the survivors. The initial contract began July
                           19, 2008, and was funded for $53,000; the contract was modified
                           and extended through August 2008 and funding increased to more
                           than $638,000. This contract was increased and extended as mold
                           continued to be discovered in mobile homes and FEMA needed to
                           provide alternate housing for the survivors until the mold was
                           remediated.

                           Modifications added $500,000 to the Hawkeye Electric contract,
                           which was initially funded for $50,000. The contracting officials
                           said that the initial funding was to get the contract under way
                           because electrical services were needed to set up temporary
                           housing. When the contracting officials realized that the
                           requirements for these services would increase significantly, given
                           the scope of the Iowa flooding, they asked the IA-TAC officials if
                           these services could be incorporated into the IA-TAC mission.
                           The IA-TAC officials said no because the IA-TAC contractor
                           would probably use Hawkeye Electric to provide the same
                           services. Since FEMA contracting already had the contract vehicle
                           in place, IA-TAC officials stated that the increase in award was
                           correct and AMD should continue this contract.

                           Conclusion

                           Although improvements have been made in contract management,
                           FEMA was not appropriately safeguarding all contract files and
                           not following FAR or FEMA acquisition contracting procedures
                           and processes. As a result, the files were not readily accessible to
                           users. For contracts without adequate documentation, it was
                           difficult to determine the basis for cost escalations, whether FEMA

18
  This type of contract provides for an indefinite quantity of supplies or services during a fixed period of
time. These contracts allow for a certain amount of contract process streamlining, as negotiations can be
made only with the selected company.



                      Improvements Needed in FEMA’s Disaster Contract Management

                                                   Page 27
                           was paying fair prices for goods and services, or the rationale for
                           the acquisition. In addition, it was difficult to determine whether
                           contracts were effectively managed and monitored or whether
                           appropriate controls were in place to prevent waste, fraud, or
                           abuse. If FEMA does not evaluate performance, it is not in a
                           position to exclude poor-performing contractors from receiving
                           future contracts from FEMA and other federal agencies.

                           Another recently issued report on FEMA’s acquisition internal
                           controls stated that many files could not be located, AMD did not
                           have a standardized approach to documentation and file
                           maintenance, and supervisors did not hold contracting officers
                           accountable for maintaining contract files.19 We reiterate the
                           recommendation in that report that the Director, AMD, require
                           supervisors to monitor contract file maintenance and hold
                           contracting officers and specialists accountable by including an
                           assessment of their contract file maintenance activities in their
                           annual performance evaluation.

                   Recommendation
                           We recommend that the Director, Acquisition Management
                           Division:

                           Recommendation #4: Ensure compliance with existing contract
                           file maintenance regulations, policies, and procedures and provide
                           a strong control environment in headquarters, regional offices, and
                           field offices by:

                                �	 Conducting periodic reviews of contract files, and
                                �	 Requiring that files provide an explanation for contracting
                                   decisions and actions.

                   Management Comments and Contractor Analysis
                           FEMA concurs with this recommendation. FEMA said it has
                           already taken action to implement this recommendation. An
                           internal audit program has been established and an internal review
                           of contract files to determine the inclusion of necessary and
                           required acquisition documentation occurred throughout fiscal year
                           2009 and will continue into fiscal year 2010. FEMA has issued a
                           standard operating procedure that identifies those acquisition

19
     DHS OIG: Internal Controls in the FEMA Disaster Acquisition Process, OIG-09-32, February 2009.



                       Improvements Needed in FEMA’s Disaster Contract Management 


                                                 Page 28 

                           documents that need to be maintained. FEMA plans to develop
                           and implement an electronic contract file maintenance system in
                           fiscal year 2010.

                           Contractor Analysis: We consider FEMA’s actions taken and
                           those planned responsive to the recommendation. Therefore, the
                           recommendation is resolved and open pending FEMA’s successful
                           implementation and the OIG’s review of the electronic contract file
                           maintenance system.

                  Establishing a Joint Field Office
                           FEMA exercised questionable decision-making in establishing the
                           JFO in Brentwood, Tennessee. The selection of the JFO site
                           resulted in excessive expenditures of federal funds and put the JFO
                           employees at risk because the building used was a potentially
                           unsafe and unhealthy facility.

                           After a disaster is declared, a JFO is set up to establish a base for
                           FEMA and other federal, state, and local employees to provide
                           assistance to the survivors. On February 5 and 6, 2008, a series of
                           severe storms and tornadoes struck several counties in western and
                           north central Tennessee. A disaster declaration was issued on
                           February 7, 2008.

                           According to General Services Administration (GSA) Realty
                           Services Letter RSL – 2008 – 06, GSA must provide contracting
                           support services to FEMA consistent with mission assignments and
                           tasks issued by FEMA. Pursuant to 40 U.S.C. § 585, GSA may
                           enter into a lease for the accommodation of a federal agency in
                           buildings or improvements for a term of up to 20 years. FEMA is
                           to provide GSA with the JFO requirements—square footage,
                           parking, building access, location, janitorial services—and then
                           GSA is to use the Multiple Listing Service (MLS) to identify
                           buildings that are available and meet the FEMA requirements.20
                           Immediately after the disaster declaration, FEMA and GSA
                           officials began to take steps to establish a JFO. However, the
                           decisions made and the process followed for selecting the facility
                           at 219 Franklin Road in Brentwood, Tennessee, were seriously
                           flawed, resulting in excessive expenditures of federal funds.

20
  An MLS database and software is used by real estate brokers representing sellers under a listing contract
to share information about properties with real estate brokers who may represent potential buyers or wish to
cooperate with a seller's broker in finding a buyer for the property.



                      Improvements Needed in FEMA’s Disaster Contract Management

                                                  Page 29
                         Additionally, because of the condition of the site, the health and
                         safety of the JFO employees were potentially put at risk.21
                         FEMA did not use the best possible sources for selection of the
                         JFO. Instead of making possible building selections from an MLS,
                         two individuals, one from FEMA and one from GSA, drove around
                         Nashville looking for acceptable locations. (FEMA tries to locate
                         JFOs near state capitals to encourage good communications
                         between FEMA and state emergency officials.) According to
                         several FEMA officials, these two individuals were responsible for
                         the decision-making process and selection of this facility.
                         During our review, several FEMA officials referenced the decision
                         to select the Brentwood facility for the JFO as “political.” We
                         were able to identify one document justifying the “urgent and
                         compelling circumstances” for the Brentwood location that
                         contained this sentence: “It is in the city limits of Brentwood, TN,
                         and is in an area which presents a high public visibility of FEMA.”

                         According to the current FEMA logistics chief, Region IV, “it was
                         a lease that went horribly wrong.” He said that:

                             �	 There were plumbing issues and you could smell raw
                                sewage.
                             �	 The building was not condemned but was in a condemnable
                                state and that it was in “a pretty deplorable shape.”
                             �	 There were dead insects and roaches on the floors.
                             �	 The local police were using a portion of it as a practice
                                facility and firing range, and there were shell casings on the
                                floor in one section of the building.
                             �	 It was a building he would not have let his staff go into if
                                he had been in charge at the time.
                             �	 The facility caused health issues for the employees because
                                of the raw sewage smell and varying sections of the
                                building were too hot or too cold.

                         There were major inconsistencies or deficiencies in virtually every
                         aspect of the process used to select this facility.

                         JFO Building Inspection

                         First, we were told that FEMA inspected and found the building
                         acceptable before agreeing to sign the lease. However, the FEMA
21
  The building was the former site of the world headquarters for the Murray Lawn Mower company. At
the time it was chosen to be used for the JFO, it had been vacant for about 18 months.



                    Improvements Needed in FEMA’s Disaster Contract Management

                                               Page 30
    safety officer told us that a complete and thorough inspection was
    not performed. The inspections that were performed were at night,
    in the dark, using flashlights, because the building had no electric
    power. The building was locked when FEMA staff arrived in the
    afternoon for the inspection; they viewed it from the outside.
    FEMA officials did not gain access to the inside of the building
    until 9 p.m. The electricity and water had been shut off.
    Therefore, the inspection team was unable to check the heating and
    air conditioning system, emergency lighting, and alarm systems.
    The team could not determine if the plumbing was functioning or
    the water potable.

    Second, the FEMA official who led the selection process told us up
    to 500 people worked in the JFO, which is why such a large
    building—upwards of 100,000 square feet—was needed.
    However, a staffing report showed that the highest number of
    employees assigned to the JFO at any given time was 259. Other
    FEMA officials told us that many of these employees worked out
    of FEMA Disaster Recovery Centers in the surrounding area and
    thus were not working at the Brentwood facility.

    The FEMA official who led the selection told us that the lower
    lease rate per square foot of the Brentwood building made it most
    cost-effective to select this building, make any necessary repairs,
    and pay for the utilities and janitorial services, rather that lease one
    of two other buildings that were considered. The estimates for the
    Brentwood building size ranged from 50,000 to 100,000 square
    feet; no one in FEMA or GSA could provide us with the actual
    square footage used for the JFO operations. Several officials who
    worked at the JFO told us that the facility was much too big for
    their needs. The chief of staff for the JFO estimated that 14,000
    square feet were used. Based on this estimate of space used, the
    cost of the building was not the best value or most cost-effective.

    Full-Service Leases

    We were told that the other buildings considered offered full-
    service leases, in which all utility and maintenance expenses were
    included in the lease rate and paid by the owner. However, no one
    in FEMA or GSA could provide a written cost comparison of the
    three buildings. The FEMA official cited above said the analysis
    was “all in his head” and that a written comparison was never
    done. The GSA contract lease file did not contain a cost analysis
    of the three buildings considered. Furthermore, neither FEMA nor
    GSA officials could provide us with the addresses of the two other


Improvements Needed in FEMA’s Disaster Contract Management

                         Page 31
    buildings considered. Thus, we were not able to inspect the
    condition of the other two buildings.

    We were told that one of the other buildings considered was
    rejected because it was in a high-crime area and not acceptable.
    FEMA officials said that the other building considered was
    rejected because its handicap access entrance, a standard
    requirement of a government lease, was at a different side of the
    building than the main entrance, thus requiring additional security
    with its attendant costs. However, GSA crossed out the lease
    language in the Standard Conditions and Requirements section of
    the Brentwood lease that required the leased space be handicapped
    accessible.

    Condition of the Brentwood JFO

    Although we were told by FEMA and GSA that the Brentwood
    facility was acceptable as a JFO, numerous problems were
    identified to us:

        �	 The heating system’s boiler was a constant problem—
           someone had to watch it 24/7 so it would not explode or
           crack.
        �	 The temperature was not stable throughout the building—
           sections were either too hot or too cold. The comptroller
           said she had to wear her coat, hat, and gloves while
           working there.
        �	 The building’s water supply was not potable— FEMA had
           to purchase and bring in bottled water for drinking and
           washing hands. The water main broke one day and the
           employees were sent home.
        �	 Some of the FEMA officials called it a “sick building.”
           When a senior management official from the FEMA
           regional office had plans to visit the JFO, he was urged not
           to come because so many employees were sick. One of the
           employees had an unexplained facial rash for 3 months
           after working at this building.
        �	 Sewage leaks occurred and employees had to be sent home.
        �	 The roof leaked—the chief of staff told us “waste baskets
           were usually able to handle the leaks.”
        �	 Portions of the building were not suitable for working
           owing to solvent odors and possible contamination.




Improvements Needed in FEMA’s Disaster Contract Management 


                          Page 32 

    Figure 6: “Do not use” water sign on drinking fountain




    Source: Foxx & Company

    The lease that FEMA signed required FEMA to be responsible for
    all utility, maintenance, and repair expenses. The senior
    management official from the FEMA regional office said he had
    “never done this type of lease before and [he] would never do it
    again.”

    FEMA officials told us there was an urgent and compelling need to
    lease this facility so they could begin to serve the disaster
    survivors. The official’s goal was to have the JFO open and
    operational—ready to serve the survivors—within 72 hours of the
    disaster declaration. However, FEMA chose the Brentwood
    building instead of leasing one of the other full-service buildings
    that could have been open and operational immediately. The
    Brentwood building had to be cleaned and repaired for 3 days
    before it could open. FEMA contracted with a firm and paid
    $95,000 to clean the sections of the building that FEMA used for
    JFO operations. Another company’s bid for cleaning the building
    was $1.2 million, which indicates the poor condition of the entire
    building. As discussed above and as shown in Figures 7 and 8,



Improvements Needed in FEMA’s Disaster Contract Management

                         Page 33
    several sections of the building could not be used because of the
    debris, solvents, and possible contaminants that existed. The
    cleaning estimate of $1.2 million reflects the level of effort
    required to clean the building so that all of it could have been used.
    In addition, while FEMA’s goal was to have the JFO operational to
    serve the survivors, water main and sewage line breaks caused the
    building to be closed for 2 days, thus interrupting FEMA’s mission
    of assisting survivors.

    Figure 7: Room filled with debris




    Source: Foxx & Company

    Figure 8: Debris in former equipment testing area




    Source: Foxx & Company




Improvements Needed in FEMA’s Disaster Contract Management

                         Page 34
    The JFO logistics chief said when staff began to move in to the
    facility, he had an immediate concern about using it as the JFO.
    He said it was a “horrible building to work out of” and that he “did
    not care how much money it showed on paper that the government
    may have saved by leasing this building—it was not worth it in
    personnel costs and discomfort.”

    The comptroller for this JFO told us that the continual funding
    requests to repair the building she received concerned her so much
    that she began tracking the expenses. She said she had “never seen
    anything like it.” Her analysis showed that it was more expensive
    to set up than other similar JFOs. She said “the janitorial services
    were extraordinarily high, the electricity and plumbing expenses
    were outrageous” and that “clearly the government did not get a
    good deal on this.” She also said that the facility was far larger
    than needed for the estimated 300 staffers.

    Disaster Safety Officer Report

    We obtained the lead disaster safety officer’s log, which had 

    notations on the issues we noted above. For example: 


        �	 On February 7, he wrote, “Approved the building selected
           with reservations. Very concerned that the heating,
           ventilation, and air conditioning system; plumbing; and
           electrical systems might be a problem in a building that had
           been vacant for over a year.” He added, “Also very
           concerned that the building was much too large” and “the
           building is a maze of buildings loosely formed.”
        �	 On February 8, he wrote, “There was still no gas,
           electricity, or heat in the building so a complete evaluation
           was not possible. Walked through on final selection
           property and did some preliminary planning until we got
           news around 4:00 p.m. that the lease had been signed.”
        �	 On February 9, he wrote, “Initial evalution (sic) of drinking
           water was that any water quality test would wait until the
           major plumbing leaks were addressed.” He added, “A
           waiver was received and bottled water purchased.”

    JFO Chief of Staff Reports

    The chief of staff for the Brentwood JFO provided us several of his daily
    status reports with information on the condition of the JFO. Following
    are some excerpts:



Improvements Needed in FEMA’s Disaster Contract Management

                         Page 35
        �	 February 23: “Contractor has estimated cost of $6,000 just to turn
           on the air conditioning systm (sic). This does not include costs of
           any repairs.” “Working with Logisitics (sic) to replace dead
           batteries in the emergency lighting system.”
        �	 February 26: “Sewage leak in electrical room on ground floor.”
           “Boiler room continues to be monitored 24/hr/day” (see Figure
           9). “Concern still strong about the potential failure of air
           conditioning system.” “Safety has ordered ear plugs for logistics
           staff who work the boiler room detail.”
        �	 February 27: “Report from yesterday’s sewage leak by plumber
           warns that there may be more breaks/leaks.” “The boiler watch is
           still an issue . . . Safety issues involved, but any personnel
           involved will be thoroughly trained in safety precautions and
           boiler procedures.”
        �	 February 29: “With today’s rain, leaks are expected. Trash cans
           have been pre-deployed for possible use.”
        �	 March 4: “Work will be done on the boiler again today. May
           cause alarms to go off.” “Safety will shut off alarm system to fire
           department.”

    Figure 9: Chairs used by employees to watch boiler




    Source: Foxx & Company

    FEMA used the building for less than 3 months and incurred more than
    $122,000 in lease expense and more than $607,000 in operating,
    maintenance, and repair expenses, for a total of $729,000. A lease for a
    full-service building that FEMA also considered in this same area would
    have cost about $344,000. Thus, FEMA paid more than twice as much




Improvements Needed in FEMA’s Disaster Contract Management 


                          Page 36 

      for a facility that subjected the JFO employees to potentially unhealthy
      and unsafe work conditions.

      Conclusion

      Federal leasing procedures and policies were not followed in selecting
      the JFO. FEMA established a self-imposed deadline of 72 hours to have
      the JFO operational. A series of judgments and decisions were made that
      resulted in excessive expenditures of taxpayer money to make the facility
      operational. The poor conditions of the JFO exposed employees to
      potential health and safety risks.

Recommendation
      We recommend that the Administrator of FEMA:

      Recommendation #5: Ensure compliance with FEMA and GSA
      leasing policies, procedures, and requirements. The lease contract
      files should provide a history of all contractual activities and
      determination of price reasonableness. The documentation should
      include explanatory memos, notes, email messages, and
      correspondence, as well as references to other files or locations
      that contain information supporting the acquisition.

Management Comments and Contractor Analysis
      FEMA non-concurs with this recommendation. As currently
      written, FEMA did not concur with this recommendation, citing
      that FEMA does not have the authority to enter into or negotiate
      lease agreements in support of a Presidential Declaration. FEMA
      stated that GSA is the principal agency responsible for leasing
      authority under the National Response Framework to assist FEMA
      in establishing a facility to support disaster response. FEMA
      further stated that FEMA contracting personnel do not have the
      authority to administer or maintain contract administration for
      lease agreement awards and therefore FEMA contracting should
      not be responsible for completing the required documentation for
      lease awards.

      Contractor Analysis: We agree that FEMA does not enter into
      leases. We recommended compliance with FEMA and GSA
      leasing policies, procedures, and requirements but did not state that
      FEMA had the authority to enter into or negotiate lease
      agreements. Regarding contract file documentation, according to



  Improvements Needed in FEMA’s Disaster Contract Management

                           Page 37
    FEMA’s Disaster Leasing Process directive issued in May 2009,
    FEMA is responsible for completing procedures and forms and
    maintaining this information, as well as a copy of the signed lease,
    in support of the leasing process. Therefore, we consider this
    recommendation unresolved and open.

    Regarding FEMA’s response that FEMA’s written contracts in
    support of the JFO were competed successfully and complied with
    Federal procurement regulations, our issue is not with how the
    contracts were awarded or were organized. The contracts were
    properly executed and managed. Our issue is with the decision
    making and judgment in establishing this JFO. During our review,
    several FEMA officials raised concerns about its selection. As
    stated in the report, a complete and thorough inspection was not
    performed to ensure the building was habitable. As stated in
    FEMA’s Disaster Leasing Process directive, the Federal
    Coordinating Officer is to “complete a thorough review of all
    facilities that are candidates for acquisition to support an efficient,
    timely response and to ensure that safe and healthful facilities are
    provided.” In the future, compliance with the new FEMA
    directive should result in JFO facilities that provide safe and
    healthy environments for their users.

    Regarding FEMA’s self imposed deadline of opening a JFO within
    72 hours after a Presidential Declaration, we understand and
    appreciate FEMA’s goal of being available as soon as possible to
    assist the disaster survivors. However, all the proper inspections
    and approvals should be completed to ensure that a safe and
    healthy facility is acquired for FEMA employees and survivors
    seeking assistance.




Improvements Needed in FEMA’s Disaster Contract Management 


                          Page 38 

Appendix A
Purpose, Scope, and Methodology




                          The purpose of this audit was to assess FEMA’s management of
                          disaster contracts. The FEMA disaster contracting function was
                          challenged in responding to the 2005 Gulf Coast hurricanes.
                          FEMA is attempting to improve its acquisition functions, including
                          contracting, to prepare for, respond to, and mitigate the effects of
                          disasters, as well as improve its day-to-day operations. The DHS
                          OIG has a requirement to determine if FEMA’s policies have been
                          successfully implemented.

                          The objective of the audit of selected FY 2008 disaster contracts
                          was to conduct detailed contract reviews, assess FEMA’s
                          execution and management of the contracts, and determine
                          whether the federal government is getting a fair return for the
                          goods and services it has contracted for. The specific objectives of
                          the audit were to assess:

                              �	 FEMA’s ability to track, manage, and monitor selected FY
                                 2008 disaster contracts;
                              �	 What safeguards were included to reduce, deter, and detect
                                 fraud, waste, and abuse;
                              �	 The level of communication and coordination within
                                 FEMA and with other federal agencies and states regarding
                                 disaster contracts; and
                              �	 The extent to which FAR and AMD policies and
                                 procedures have not been followed and the impact on the
                                 delivery of goods and services.

                          FEMA is required to adhere to contract management policies and
                          procedures that are promulgated in the FAR.22 FEMA also is
                          required to adhere to the Homeland Security Acquisition
                          Regulation and the Homeland Security Acquisition Manual, Office
                          of Federal Procurement Policy guidance, and the Stafford Act.23


22
   The FAR, codified in Title 48 of the United States Code of Federal Regulations, was developed pursuant
to the Office of Federal Procurement Policy Act of 1974 (Public Law 93-400), as amended by Public Law
96-83.
23
   FEMA’s statutory authority comes from the Robert T. Stafford Disaster Relief and Emergency
Assistance Act, as amended. The Stafford Act was enacted in 1988 (Public Law 100-707), and it amended
the Disaster Relief Act of 1974 (Public Law 93-288).




                     Improvements Needed in FEMA’s Disaster Contract Management

                                                 Page 39
Appendix A
Purpose, Scope, and Methodology



                   The sample included contracts awarded at FEMA headquarters in
                   Washington, DC, and at five FEMA regions:

                       �	   Region IV (Atlanta, GA)
                       �	   Region V (Chicago, IL)
                       �	   Region VI (Denton, TX)
                       �	   Region VII (Kansas City, MO)
                       �	   Region IX (Oakland, CA)

                   We also visited FEMA’s Federal Finance Center in Mt. Weather, VA, to
                   obtain payment information on the contracts in our sample.

                   The contracts selected represented a variety of:

                       �	 Dollar values,
                       �	 Contract types: (time and materials, cost reimbursable, firm
                          fixed price, and others),
                       �	 Types of goods and services acquired,
                       �	 Contractors with duplicative high-dollar contracts used in
                          various regions,
                       �	 Contracting officers,
                       �	 Contracts written at FEMA headquarters but managed in a
                          regional office, and
                       �	 Other contracts that are considered risky due to past 

                          performance. 


                   We conducted this performance audit according to generally
                   accepted government auditing standards (Government Auditing
                   Standards, July 2007 revision).

                   Our audit considered FEMA and AMD policies and procedures
                   implemented since the 2005 Gulf Coast hurricanes, as well as other
                   applicable federal acquisition requirements. At all of the locations
                   visited, we interviewed officials and obtained documentation to
                   verify changes or corrective actions taken. Field office work was
                   conducted from January through July 2009.




               Improvements Needed in FEMA’s Disaster Contract Management 


                                         Page 40 

Appendix B
Management Comments on the Draft Report




                                                                                l'.S-Uop..."".", or 1l.",<I."d S«"";,,
                                                                                $00(' S'n",". S\\'                   .
                                                                                \\\>,hmg,,,.,.IX.: 20·nz




                                                                    ~; FEMA
                                                                     -,<>.".,


                                                DEC 3 D 2009



         MEMORANDUM FOR:                Matt J<ldaeki
                                        Deputy Inspector General
                                        Office of Emergency M<lnagcment Oversight
                                        Office of Inspcetor General

         FROM:                          David J. Kaufinan ~c..:;;;;~ Fi¥­
                                        Dire<:tor
                                        Office of I'olicy and I'rogram Analysis

         SUBJECT:                       Comments on OIG Draft Report. ImpfOl'{!IIJ(mts Needed in
                                        FEMA 's Disastef COiftract MIlIJagemCI/I

         Thank you for the opportunity to review and eommcnt on thc omcc of InspC:l;tor
         Gencral's (OIG's) subject draft audit report. As the Federal Emergency Management
         Agency (FEMA) works toward refining its programs. the OIG"s independent analysis of
         program perfoffilanec grcatly bcncfits our ability to continuously improve our actiVities.

         With respect to the draft report's discussion of the establishment of a Joint Field Office
         (JFO) in Brentwood, Tennessee. we wish to point Ollt that FEMA's written contracts in
         support of the JFO were competed successfully and complied with Federal procurement
         regulations. The contract files for opeTDtion and maintenance eontainlxl <Ill of the
         required documentation to support the contracting decision ntade by the FEMA
         Contracting Officer. Moreover. the draft audit repor1 docs not identify the positivc
         commcnts made by Fo};}; & Company regarding FEMA disaster contract administf'Jtion
         in suppor1 of Brentwood. TN.

         FEMA concurs with three of the draft repor1's five recommendations. FEMA has bcen
         working diligently to com;et the issues identified in your audit. While we will be
         providing corrective action plans in our 90-day response. we provide the following
         infOllllatiOll relative to the five recOlmnend<ltions. induding the reasons for our non­
         concurrence Wilh r<:commendations 2 and 5:

         Recommendation I: Adhere to the National Response Framework principles by
         ehuifying the authority of federal. st<lte, local. and regional emergency managers and
         ensure, to the extent possible, that acquisitions nrc based on accurate cstimat(;s of needs.




                  Improvements Needed in FEMA’s Disaster Contract Management 


                                                    Page 41 

Appendix B
Management Comments on the Draft Report




         Page 2

         Response: FEMA concurs with this recommendation in principle and will review
         existing processes and procedures to facilitate better coordination among the above
         mentioned officials. Further, as the DIG report indicates, FEMA has since implemented
         a Concept of Operations for FEMA Responder Support Camps in May 2009, which
         introduced the concept of modular and scalable base camps and clarifies the process for
         defining the requirements for base camps.

         Nevertheless, FEMA disagrees with the finding that FEMA could have avoided spending
         more than $4 million by consolidating two base camps into one. The example provided
         indicates that FEMA established two 500-bed base camps in the State of Texas for an
         initial 30 days near the Scholes Airport and near the Orange County Airport. This was a
         significant improvement from the 2000 occupant base camps FEMA had contracted for in
         the past. The services were extended for an additional 30 days. One of the Texas base
         camps housed 310 occupants and served 632 meals; whereas the other base camp housed
         236 occupants and served 320 meals. However, it is clear that 546 occupants (310 plus
         236) could not be housed within a single 500-bed base camp. It is also clear that FEMA
         had to establish either two 500-bed base camps (this is the minimum occupancy rate
         available) or a single 1000-bed base camp. The two camps were established in two
         different, geographically distant, Texas counties in order to best meet the needs of the
         responders.

         This recommendation is considered closed.

         Recommendation 2: Develop criteria defining the types of commodities that FEMA can
         purchase in response to a disaster including criteria to assess employees' housing at a
         disaster site to ensure that the least expensive option is used.

         Response: FEMA does not concur with this recommendation. With respect to "defining
         the types of commodities that FEMA can purchase in response to a disaster," FEMA
         must have the flexibility to respond to unique requirements including possible limitations
         that some of our partners may experience due to resource shortfalls. FEMA has the
         authority to purchase any type of commodity that is not unauthorized or otherwise
         illegal. Therefore, defining the types of commodities that FEMA can purchase is
         considered redundant and unnecessary. The audit report indicates that FEMA made
         purchases that it normally did not buy. Yet, this is not the equivalent of stating that
         FEMA had no authority to make such purchases or that the purchases were not
         appropriate under the circumstances.

         With respect to "criteria to assess employees' housing at a disaster site to ensure that the
         least expensive option is used," FEMA houses employees during a disaster where it can.
         At no time did FEMA violate the housing per diem that was established for the response
         effort. Short term housing such as hotels in the immediate disaster area are reserved for
         survivors so that they can be close to their property and help re-establish their lives.




                  Improvements Needed in FEMA’s Disaster Contract Management 


                                                    Page 42 

Appendix B
Management Comments on the Draft Report




          Page 3

         Recommendation 3: Direct FEMA contracting specialists to improve coordination with
         operations and logistics and other personnel who support the acquisition process.
         Develop a common and coordinated plan for how to meet the government's needs during
         an emergency and when emergency supplies in warehouses are exhausted. FEMA should
         also consider communicating with stakeholders in General Services Administration,
         Defense Logistics Agency, and the U.S. Corp of Engineers who may have their own
         standby contracts for disaster related commodities and services.

         Response: FEMA concurs with this recommendation and has undertaken a review of
         certain contracts for recurring items and services to determine whether such requirements
         should be placed under a pre-positioned contract or under a contractual vehicle that will
         permit acquisition at a fair and reasonable price/cost. This recommendation is considered
         implemented.

         Recommendation 4: Ensure compliance with existing contract file maintenance
         regulations, policies, and procedures and provide a strong control environment in
         headquarters, regional offices, and field offices by:
            • Conducting periodic reviews of contract files, and
            .. Requiring that files provide an explanation for contracting decisions and actions.

         Response: FEMA concurs with this recommendation. FEMA's Acquisition
         Management Division (AMD) has already implemented this recommendation. An
         internal audit program was established in November 2008 and an internal review of
         contract files to determine the inclusion of necessary and required acquisition
         documentation are maintained occurred through FY 2009 and will continue into FY
         2010. A standard operating procedure was issued in FY 2008 identifying those
         acquisition documents that needed to be maintained to support the acquisition decisions.
         An electronic contract file maintenance system will be developed and implemented in FY
         2010. This recommendation is considered implemented.

         Recommendation 5: Ensure compliance with FEMA and GSA leasing policies,
         procedures, and requirements. The lease contract files should provide a history of all
         contractual activities and determination of price reasonableness. The documentation
         should include explanatory memos, notes, email messages, and correspondence, as well
         as references to other files or locations that contain information supporting the
         acquisition.

         Response: As currently written, FEMA does not concur with this recommendation.
         FEMA does not have the authority to enter into or negotiate lease agreements in support
         of a Presidential Declaration. GSA is the principal agency responsible for leasing
         authority under the National Response Framework to assist FEMA in establishing a
         facility to support disaster response. FEMA contracting personnel do not have the
         authority to administer or maintain contract administration for lease agreement awards.




                   Improvements Needed in FEMA’s Disaster Contract Management 


                                                  Page 43 

Appendix B
Management Comments on the Draft Report




          Page 4

          Therefore, FEMA contracting should not be responsible for completing the required
          documentation for lease awards.

         However, FEMA recognizes the obligation to work with GSA in establishing Joint Field
         Offices. To that end, FEMA issued a Disaster Leasing directive in May 2009 (copy
         attached). The substance of the FEMA directive is in accord with and strictly complies
         with the draft report's referenced GSA Realty Service Letter. While GSA is the
         contracting entity that acquires the space for FEMA, it is imperative that the process
         allow for health and safety reviews prior to execution of the lease. Regarding the "self
         imposed" deadline to have space available and FEMA open for business within 72 hours
         of a declaration, FEMA typically works with the GSA lease contracting representative for
         several days and sometimes more than a week before the actual declaration date. FEMA
         totally supports the need to comply with established leasing policies, procedures, and
         disaster lease requirements. The GSA disaster lease policy provides for an expedited
         lease acquisition process, but field personnel interfacing with GSA must learn to comply
         with and meet all necessary requirements to avoid a repeat of the Brentwood, Tennessee
         example. Sometimes it is forgotten that the acquisition of a leasehold interest in real
         property is a federal procurement where the price must be justified either by competition,
         or by a valid independent government estimate (appraisal). Compliance with both the
         FEMA disaster lease directive and GSA disaster lease policy will avoid the problems
         described in the audit report.

         Thank you again for the opportunity to comment on this draft report and we look forward
         to working with you on other issues as we both strive to improve FEMA.

         Attachment




                   Improvements Needed in FEMA’s Disaster Contract Management 


                                                  Page 44 

Appendix C
List of Related Reports and Testimonies


DHS OIG: FEMA’s Sourcing for Disaster Response Goods and Services, OIG-09-96,
August 2009

DHS OIG: Management Advisory Report: FEMA’s Response to Hurricane Ike, OIG-09­
78, June 2009

DHS OIG: Challenges Facing FEMA’s Disaster Contract Management, OIG-09-70,
May 2009

DHS OIG: FEMA’s Implementation of Best Practices in the Acquisition Process, OIG­
09-31, February 2009

DHS OIG: Internal Controls in the FEMA Disaster Acquisition Process, OIG-09-32,
February 2009

DHS OIG: Challenges Facing FEMA’s Acquisition Workforce, OIG-09-11, November
2008

DHS OIG: FEMA’s Sheltering and Transitional Housing Activities After Hurricane
Katrina, OIG-08-93, September 2008

DHS OIG: Hurricane Katrina Temporary Housing Technical Assistance Contracts,
OIG-08-88, August 2008

DHS OIG: Costs Incurred for Rejected Temporary Housing Sites, OIG-08-86, August
2008

DHS OIG: Hurricane Katrina Multitier Contracts, OIG-08-81, July 2008

DHS OIG: Acquisition Workforce Training and Qualifications, OIG-08-56, May 2008

DHS OIG: FEMA’s Preparedness for the Next Catastrophic Disaster, OIG-08-34,
March 2008

DHS OIG: FEMA’s Award of 36 Trailer Maintenance and Deactivation Contracts, OIG­
07-36, March 2007

DHS OIG: A Performance Review of FEMA’s Disaster Management Activities in
Response to Hurricane Katrina, OIG-06-32, March 2006

GAO: FEMA Strengthened Its Fraud Prevention Controls, but Customer Service Needs
Improvement, GAO-09-671, June 2009




                 Improvements Needed in FEMA’s Disaster Contract Management 


                                           Page 45 

Appendix C
List of Related Reports and Testimonies


GAO: Department of Homeland Security: Progress and Continuing Concerns with
Acquisition Management, GAO-08-1164T, September 2008

GAO: Emergency Management: Observations on DHS's Preparedness for Catastrophic
Disasters, GAO-08-868T, June 2008

GAO: Department of Homeland Security: Better Planning and Oversight Needed to
Improve Complex Service Acquisition Outcomes, GAO-08-765T, May 2008

GAO: Department of Homeland Security: Better Planning and Assessment Needed to
Improve Outcomes for Complex Service Acquisitions, GAO-08-263, April 2008

GAO: Department of Homeland Security: Status and Accountability Challenges
Associated with the Use of Special DHS Acquisition Authority, GAO-08-471T, February
2008

GAO: National Disaster Response: FEMA Should Take Action to Improve Capacity and
Coordination between Government and Voluntary Sectors, GAO-08-369, February 2008

GAO: Department of Homeland Security: Improved Assessment and Oversight Needed
to Manage Risk of Contracting for Selected Services, GAO-07-990, September 2007

GAO: Homeland Security: Observations on DHS and FEMA Efforts to Prepare for, and
Respond to Major and Catastrophic Disasters and Address Related Recommendations
and Legislation, GAO-07-1142T, July 2007

GAO: Hurricane Katrina: Improving Federal Contracting Practices in Disaster
Recovery Operations, GAO-06-714T, May 4, 2006.

GAO: Hurricane Katrina: Planning for and Management of Federal Disaster Recovery
Contracts, GAO-06-622T, April 2006

GAO: Agency Management of Contractors Responding to Hurricanes Katrina and Rita,
GAO-06-461R, March 2006.

Testimony of Craig Fugate, FEMA Administrator, before the House Committee on
Transportation and Infrastructure, Subcommittee of Economic Development, Public
Buildings and Emergency Management, Post-Katrina: What it Takes to Cut the
Bureaucracy and Assure a More Rapid Response after a Catastrophic Disaster, July 27,
2009




                 Improvements Needed in FEMA’s Disaster Contract Management 


                                           Page 46 

Appendix D
FEMA Organization Chart




              Improvements Needed in FEMA’s Disaster Contract Management 


                                        Page 47 

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Under Secretary, Management
                      FEMA Audit Liaison (Job Code 09-011-EMO)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner




                        Improvements Needed in FEMA’s Disaster Contract Management

                                                 Page 48
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
